U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 18, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Collins v. Yellen, No. 19-422, and Yellen v. Collins, No. 19-563
Dear Mr. Harris:
On January 14, 2021, the U.S. Department of the Treasury and the Federal Housing
Finance Agency (FHFA), as conservator for Fannie Mae and Freddie Mac, announced
amendments to the Preferred Stock Purchase Agreements between Treasury and FHFA on behalf
of Fannie and Freddie. The text of the amendments is enclosed with this letter.
The most recent amendments, among other things, modify the Third Amendment’s variable
dividend formula and waiver of periodic commitment fees. The amendments instead establish a
new compensation formula that allows the enterprises to build up substantial capital reserves.
They provide that, until an enterprise builds up enough capital to meet certain thresholds—a
process that is expected to take multiple years—the enterprise will compensate Treasury through
increases in the liquidation preference rather than through variable cash dividends. They further
provide that, after the enterprise builds up the specified amount of capital, the enterprise will make
quarterly dividend payments equal to the lesser of 10 percent of Treasury’s liquidation preference
or the incremental increase in the enterprise’s net worth in the previous quarter and will pay
periodic commitment fees.
The amendments do not moot these cases. The shareholders have sought both (1)
prospective relief prohibiting the continued implementation of the Third Amendment’s dividend
formula and (2) retrospective relief ordering the return of dividends already paid under that
formula. See J.A. 117-118. The new amendments modify the Third Amendment’s dividend
formula going forward, but they do not refund dividend payments that were made in the past or
otherwise provide retrospective relief.
I would appreciate your distributing this letter to the Members of the Court.

Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
Enclosures
cc:

See Attached Service List

2

19-0422
COLLINS, PATRICK J., ET AL.
JANET L. YELLLEN, SECRETARY OF THE
TREASURY, ET AL.

MATTHEW P. CAVEDON
DIRECTOR OF OPERATIONS
P.O. BOX 390
GAINESVILLE, GA 30503
860-538-9130
MCAVEDON@POST.HARVARD.EDU
CHARLES J. COOPER
COOPER & KIRK, PLLC
1523 NEW HAMPSHIRE AVENUE, NW
WASHINGTON, DC 20036
202-220-9600
CCOOPER@COOPERKIRK.COM
CYNTHIA FLEMING CRAWFORD
AMERICANS FOR PROSPERITY FOUNDATION
1310 N. COURTHOUSE ROAD
7TH FLOOR
ARLINGOTN, VA 22201
571-329-2227
CCRAWFORD@AFPHQ.ORG
CHARLES FLORES
BECK REDDEN LLP
1221 MCKINNEY ST.
HOUSTON, TX 77010
713-951-3700

LINDA C. GOLDSTEIN
DECHERT LLP
1095 AVENUE OF THE AMERICAS
NEW YORK, NY 10036
212-698-3500
LINDA.GOLDSTEIN@DECHERT.COM
BRIANNE J. GOROD
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG
JOHN HARRISON
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW
580 MASSIE ROAD
CHARLOTTESVILLE, VA 22903
434-924-3093
JH8M@LAW.VIRGINIA.EDU
RACHEL HOMER
PROTECT DEMOCRACY PROJECT
2020 PENNSYLVANIA AVENUE NW
SUITE 1163
WASHINGTON, DC 20006
202-997-2166
RACHEL.HOMER@PROTECTDEMOCRACY.OR
G

JASON A. LEVINE
VINSON & ELKINS
2200 PENNSYLVANIA AVENUE, NW
SUITE 500 WEST
WASHINGTON, DC 20037-1701
202-639-6500
JLEVIN@VELAW.COM
JEFFREY W. MCCOY
PACIFIC LEGAL FOUNDATION
3100 CLARENDON BLVD.
SUITE 610
ARLINGTON, VA 22201-5330
916-419-7111
JMCCOY@PACIFICLEGAL.ORG
AARON L. NIELSON
J. REUBEN CLARK LAW SCHOOL BRIGHAM
YOUNG UNIV.
516 JRCB
PROVO, UT 84602
801-422-2669
NIELSONA@LAW.BYU.EDU
MICHAEL PEPSON
AMERICANS FOR PROSPERITY
1310 N. COURTHOUSE ROAD
SUITE 700
ARLINGTON, VA 22201
MPEPSON@AFPHQ.ORG
LAWRENCE D. ROSENBERG
JONES DAY
51 LOUISIANA AVE., N.W.
WASHINGTON, DC 20001
202-879-3939
LDROSENBERG@JONESDAY.COM

RICHARD A. SAMP
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET NW
SUITE 450
WASHINGTON, DC 20036
202-588-0302
RICHSAMP@NCLA.LEGAL
ROBERT CARTER SCHUBERT
SCHUBERT JONCKHEER & KOLBE LLP
THREE EMBARCADERO CENTER
SAN FRANCISCO, CA 94111
415-788-4220
RSCHUBERT@SJK.LAW
DAVID H. THOMPSON
COOPER & KIRK, PLLC
1523 NEW HAMPSHIRE AVENUE, NW
WASHINGTON, DC 20036
202-220-9600
DTHOMPSON@COOPERKIRK.COM

19-0563
YELLEN, JANET L., SECRETARY OF THE
TREASURY, ET AL.
PATRICK J. COLLINS, ET AL.

CHARLES J. COOPER
COOPER & KIRK, PLLC
1523 NEW HAMPSHIRE AVENUE, NW
WASHINGTON, DC 20036
202-220-9600
CCOOPER@COOPERKIRK.COM
JASON A. LEVINE
VINSON & ELKINS
2200 PENNSYLVANIA AVENUE, NW
SUITE 500 WEST
WASHINGTON, DC 20037-1701
202-639-6500
JLEVIN@VELAW.COM
AARON L. NIELSON
1277 N 1500 E
PROVO, UT 84604
NIELSON@LAW.BYU.EDU
MICHAEL PEPSON
AMERICANS FOR PROSPERITY
1310 N. COURTHOUSE ROAD
SUITE 700
ARLINGTON, VA 22201
MPEPSON@AFPHQ.ORG

ROBERT C. SCHUBERT
SCHUBERT JONCKHEER & KOLBE LLP
THREE EMBARCADERO CTR STE 1650
SAN FRANCISCO , CA 94111
415-788-4220
RSCHUBERT@SJK.LAW
DAVID H. THOMPSON
COOPER & KIRK, PLLC
1523 NEW HAMPSHIRE AVENUE, NW
WASHINGTON, DC 20036
202-220-9600
DTHOMPSON@COOPERKIRK.COM

